No. ______
In the

Supreme Court of the United States
__________________
TOMMIE RAE BROWN,
v.

Petitioner,

DEANNA BROWN-THOMAS, INDIVIDUALLY AND IN HER
CAPACITY AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF VENISHA BROWN, AND YAMMA BROWN,
Respondents.
__________________
On Petition for Writ of Certiorari to the
South Carolina Supreme Court

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ROBERT N. ROSEN
SUSAN CORNER ROSEN
THOMAS A. HAFFEY
ROSEN LAW FIRM, LLC
18 Broad Street
Suite 201
Charleston, SC 29401

JASON SCOTT LUCK
Counsel of Record
P.O. Box 47
Bennettsville, SC 29512
(843) 479-6863
jason@luck.law

S. Alan Medlin
1713 Phelps Street
Columbia, SC 29205
January 20, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
On June 17, 2020, the South Carolina Supreme
Court declared the 2001 marriage between petitioner
Tommie Rae Brown and the late entertainer James
Brown void ab initio for bigamy, articulating a new
rule that a person in a void marriage must obtain a
judicial declaration of its invalidity before he or she
may seek remarriage. The South Carolina Supreme
Court applied this new rule retroactively to petitioner’s
2001 marriage to Brown, but not to petitioner’s 1997
marriage to a Pakistani national in Texas, which a
South Carolina court had declared void ab initio for
bigamy in 2004.
The questions presented are:
I.
Whether requiring the class of persons in
marriages that are void ab initio to obtain a judicial
decree of invalidity before remarrying violates the Due
Process and Equal Protection Clauses of the
Fourteenth Amendment, and particularly violates the
fundamental right to marry.
II.
Whether allowing non-parties to attack the in
rem order annulling petitioner’s 1997 marriage violates
long-settled precedent of the Court and the Due
Process and Equal Protection Clauses of the
Fourteenth Amendment, and particularly violates the
fundamental right to marry.
III.
Whether applying a decision affecting the
fundamental right of marriage neither fully
retroactively nor purely prospectively violates
precedent of the Court, as to which the courts of
appeals are in conflict.

ii
STATEMENT OF RELATED PROCEEDINGS
In Re: The Estate of James Brown a/k/a James
Joseph Brown
Tommie Rae Brown, respondent
v.
David Sojourner, Jr., in his capacity as Limited
Special Administrator and Limited Special Trustee,
Deanna Brown-Thomas, Yamma Brown, Venisha
Brown, Larry Brown, Terry Brown, Michael Deon
Brown, and Daryl Brown, defendants
Of whom Deanna Brown-Thomas, Yamma Brown,
and Venisha Brown are petitioners
South Carolina Supreme Court case number 2018001990
***
In Re: The Estate of James Brown a/k/a James
Joseph Brown
Tommie Rae Brown, respondent
v.
David Sojourner, Jr., in his capacity as Limited
Special Administrator and Limited Special Trustee,
Deanna Brown-Thomas, Yamma Brown, Venisha
Brown, Larry Brown, Terry Brown, Michael Deon
Brown, and Daryl Brown, defendants
Of whom Deanna Brown-Thomas, Yamma Brown,
Venisha Brown, Terry Brown, Michael Deon Brown,
and Daryl Brown are appellants
South Carolina Court of Appeals case number 2015002417

iii
***
In re the Estate of James Brown a/k/a James Joseph
Brown
Aiken County, South Carolina, Court of Common
Pleas case numbers 2013-CP-02-02849 and 2013-CP02-02850
***
In re the Estate of James Brown a/k/a James Joseph
Brown
Aiken County, South Carolina, Probate Court case
number 2007-ES-02-0056
***
James Joe Brown, Jr., plaintiff
v.
Tommie Rae Hyne [sic] Ahmed Brown, defendant
Aiken County, South Carolina, Family Court case
number 2004-DR-02-175
***
Tommie Rae Hynie a/k/a Tommie Rae Brown,
plaintiff
v.
Javed Ahmed, defendant
Charleston County, South Carolina, Family Court
case number 2003-DR-10-4609

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

Background and Proceedings before the
South Carolina Supreme Court’s decision in
Wilson v. Dallas. . . . . . . . . . . . . . . . . . . . . . . . 2

II.

The Circuit Court’s Consideration of Tommie
Rae’s Status as Surviving Spouse after
Wilson v. Dallas. . . . . . . . . . . . . . . . . . . . . . . . 4

III.

Proceedings on Appeal . . . . . . . . . . . . . . . . . . 7

REASONS FOR GRANTING THE WRIT. . . . . . . . 10
I.

The South Carolina Supreme Court’s
Decision Violates the United States
Constitution’s guarantees of Due Process and
Equal Protection . . . . . . . . . . . . . . . . . . . . . . 11
A. Requiring a class of persons to obtain a
judicial decree in order to marry violates
Due Process and Equal Protection . . . . . 12

v
B. The South Carolina Supreme Court’s
decision arbitrarily deprives Tommie Rae
of her fundamental right to marry . . . . . 15
C. Allowing third parties to attack an in rem
judgment adjudicating vested federal
rights violates long-settled precedent and
Due Process . . . . . . . . . . . . . . . . . . . . . . . 17
II.

The Questions Presented are Important and
Recurring . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

III.

There is a Circuit Split over the
Prospective or Retroactive Application of
Judicial Decrees. . . . . . . . . . . . . . . . . . . . . . . 23
A. Five circuits continue to use the test of
Chevron Oil. . . . . . . . . . . . . . . . . . . . . . . . 25
B. Five circuits use standards set by Harper
or its progeny . . . . . . . . . . . . . . . . . . . . . . 26
C. Three circuits’ positions are unclear . . . . 28
D. The South Carolina Supreme Court was
obligated to apply either pure
prospectivity or full retroactivity to its
decision affecting a federal right, but it
applied a selective retroactivity. . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix A Opinion No. 27982 in the State of
South Carolina Supreme Court
(June 17, 2020) . . . . . . . . . . . . . . . App. 1

vi
Appendix B Opinion No. 5578 in the State of South
Carolina Court of Appeals
(July 25, 2018). . . . . . . . . . . . . . App. 32
Appendix C Order Re Respondent’s and Amici
Curiae’s Motions to Alter, Amend or
Reconsider Order Re Petitioner’s
Motion for Summary Judgment and
the Limited Special Administrator’s
Motion for Summary Judgment in the
State of South Carolina Court of
Common Pleas Second Judicial Circuit
(October 26, 2015) . . . . . . . . . . . . App. 49
Appendix D Order Re Petitioner Tommie Rae
Brown’s Motion for Summary
Judgment and the Limited Special
Administrator’s Motion for Summary
Judgment in the State of South
Carolina Court of Common Pleas
Second Judicial Circuit
(January 13, 2015) . . . . . . . . . . . App. 72
Appendix E Consent Order of Dismissal in the
State of South Carolina Family Court
Second Judicial Circuit
(August 16, 2004) . . . . . . . . . . . App. 136
Appendix F Final Order in the State of Carolina
Family Court for the Ninth Judicial
Circuit
(April 15, 2004) . . . . . . . . . . . . . App. 140
Appendix G Order Denying Rehearing in the
Supreme Court of South Carolina
(August 24, 2020) . . . . . . . . . . . App. 147

vii
Appendix H Petition for Rehearing in the State of
South Carolina in the Supreme Court
(July 1, 2020). . . . . . . . . . . . . . . App. 149
Appendix I Respondent’s Brief in the State of
South Carolina in the Supreme Court
(March 28, 2019) . . . . . . . . . . . . App. 171
Appendix J Petitioner’s Brief in the State of South
Carolina in the Supreme Court
(March 4, 2019) . . . . . . . . . . . . . App. 176

viii
TABLE OF AUTHORITIES
CASES
Admiral Ins. Co. v. Abshire,
574 F.3d 267 (CA5 2009) . . . . . . . . . . . . . . . . . . 26
Baker v. Gen. Motors Corp.,
86 F.3d 811 (CA8 1996), reversed on other
grounds, 522 U.S. 222 (1998) . . . . . . . . . . . . . . . 26
Bass v. South Carolina,
509 U.S. 916 (1993). . . . . . . . . . . . . . . . . . . . . . . 25
Boddie v. Connecticut,
401 U.S. 371 (1971). . . . . . . . . . . . . . . . . . . . . . . 15
Brinkerhoff-Faris Trust & Sav. Co. v. Hill,
281 U.S. 673 (1930). . . . . . . . . . . . . . . . . 17, 18, 20
Broom v. Strickland,
579 F.3d 553 (CA6 2009) . . . . . . . . . . . . . . . . . . 27
Chevron Oil Co. v. Huson,
404 U.S. 97 (1971). . . . . . . . . . . . . . . . . . . . passim
City & Cty. of S.F. v. Sheehan,
135 S.Ct. 1765 (2015) . . . . . . . . . . . . . . . . . . . . . 23
Cooey v. Strickland,
479 F.3d 412 (CA6 2007) . . . . . . . . . . . . . . . . . . 27
Crowe v. Bolduc,
365 F.3d 86 (CA1 2004) . . . . . . . . . . . . . . . . . . . 25
Day v. Day,
216 S.C. 334, 58 S.E.2d 83 (1950) . . . . . . . . . . . 19

ix
Fairfax Covenant Church v. Fairfax Cty. Sch. Bd.,
17 F.3d 703 (CA4 1994) . . . . . . . . . . . . . . . . . . . 28
Fuji Photo Film Co., Ltd. v. Jazz Photo Corp.,
394 F.3d 1368 (CA Fed. 2005) . . . . . . . . . . . . . . 28
Glazner v. Glazner,
347 F.3d 1212 (CA11 2003) . . . . . . . . . . . . . . . . 27
Gratiot Cty. State Bank v. Johnson,
249 U.S. 246 (1919). . . . . . . . . . . . . . . . . . . . . . . . 8
Harper v. Virginia Dept. of Taxation,
509 U.S. 86 (1993). . . . . . . . . . . . . . . . . . . . passim
Hodges v. Snyder,
261 U.S. 600 (1923). . . . . . . . . . . . . . . . . . . . . . . 17
In re Estate of Bivians,
98 N. M. 722, 652 P.2d 744 (N.M. App. 1982) . . 30
In re Mersmann,
505 F.3d 1033 (CA10 2007) . . . . . . . . . . . . . . . . 26
James B. Beam Distilling Co. v. Georgia,
501 U.S. 529 (1991). . . . . . . . . . . . . . . . . . . . 25, 28
Janus v. American Federation of State,
County & Municipal Employees,
138 S.Ct. 2448 (2018) . . . . . . . . . . . . . . . . . . . . . 27
Jefferson v. City of Tarrant,
522 U.S. 75 (1997). . . . . . . . . . . . . . . . . . . . . . . . . 9
Kentucky v. King,
563 U.S. 452 (2011). . . . . . . . . . . . . . . . . . . . . . . 11

x
Kolekevich v. Attorney General,
501 F.3d 323 (CA3 2007) . . . . . . . . . . . . . . . . . . 28
Lexecon Inc. v. Milberg Weiss Bershad Hynes &
Lerach, 523 U.S. 26 (1998) . . . . . . . . . . . . . . . . . 25
McCullough v. Commonwealth of Virginia,
172 U.S. 102 (1898). . . . . . . . . . . . . . . . . . . . . . . 17
Nat’l Fuel Gas Supply Corp. v. F.E.R.C.,
59 F.3d 1281 (CADC 1995) . . . . . . . . . . . . . . . . . 28
Nunez-Reyes v. Holder,
646 F.3d 684 (CA9 2011) . . . . . . . . . . . . . . . . . . 26
Obergefell v. Hodges,
576 U.S. 644 (2015). . . . . . . . . . . . . . 10, 11, 14, 23
Reno v. Flores,
507 U.S. 292 (1993). . . . . . . . . . . . . . . . . . . . . . . 13
Reynoldsville Casket Co. v. Hyde,
514 U.S. 749 (1995). . . . . . . . . . . . . . . . . 24, 27, 28
Ryder v. United States,
515 U.S. 177 (1995). . . . . . . . . . . . . . . . . 24, 27, 29
Shah v. Pan Am. World Servs., Inc.,
148 F.3d 84 (CA2 1998) . . . . . . . . . . . . . . . . . . . 25
State v. Smith,
101 S.C. 293, 85 S.E. 958 (1915) . . . . . . . . . . . . 19
Stop the Beach Renourishment, Inc. v.
Fla. Dep’t of Envtl. Prot.,
560 U.S. 702 (2010). . . . . . . . . . . . . . . . . . . . . . . 12

xi
Tilt v. Kelsey,
207 U.S. 43 (1907). . . . . . . . . . . . . . . . . . . . . . . . . 8
United Student Aid Funds, Inc. v. Espinoza,
559 U.S. 260 (2010). . . . . . . . . . . . . . . . . . . . . . . 26
Wilson v. Dallas,
403 S.C. 411, 743 S.E.2d 746 (2013) . . . . . . . . 2, 4
Zablocki v. Redhail,
434 U.S. 374 (1978). . . . . . . . . . . . . . . . . . . passim
CONSTITUTION AND STATUTES
U.S. Const. Art. III. . . . . . . . . . . . . . . . . . . . . . . . . . 25
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . passim
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
S.C. Code § 16-9-30 . . . . . . . . . . . . . . . . . . . . . . . . . 13
S.C. Code § 20-1-80 . . . . . . . . . . . . . . . . . . . . . . . 2, 19
RULES
Fed. R. Civ. P. 60(a) . . . . . . . . . . . . . . . . . . . . . . . . . 25
OTHER AUTHORITIES
Stephen J. Hammer, Retroactivity and Restraint:
An Anglo-American Comparison, 41 Harv. J.L.
& Pub. Pol’y 409 (2018). . . . . . . . . . . . . . . . . 24, 25
Judicial Conference of the United States, Report of
the Federal Courts Study Committee 125 (April
2, 1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

xii
S. Shapiro, K. Geller, T. Bishop, E. Hartnett, & D.
Himmelfarb, SUPREME COURT PRACTICE (11th
ed. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States Census Bur., J. Lewis, A. Kreider,
Remarriage in the United States 7 (ACS-30
March 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Tommie Rae Brown respectfully petitions
for a writ of certiorari to review the decision and
opinion of the South Carolina Supreme Court in this
case. The Court’s intervention is urgently needed to
relieve the impossible burden the South Carolina
Supreme Court’s decision places on persons in void
marriages who seek to remarry, and on any person who
has obtained an order of annulment or potentially a
divorce, thereby denying federal constitutional rights.
The Court’s intervention is also needed to resolve a
circuit split on the prospectivity or retroactivity of
judicial decisions, and this case is an ideal vehicle to do
so.
OPINIONS BELOW
The opinion of the South Carolina Supreme Court
is reported at 430 S.C. 474, 846 S.E.2d 342. (App. 1-31).
The opinion of the South Carolina Court of Appeals is
reported at 424 S.C. 589, 818 S.E.2d 770. (App. 32-48).
The orders of the Aiken County Circuit Court are
unreported. (App. 49-135). The order of the Aiken
County Family Court is unreported. (App. 136-139).
The order of the Charleston County Family Court is
unreported. (App. 140-146).
JURISDICTION
The opinion of the South Carolina Supreme Court
was issued on June 17, 2020, and rehearing denied by
order dated August 24, 2020. The jurisdiction of the
Court is invoked under 28 U.S.C. § 1257(a).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
No State shall…deprive any person of life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. Const. amend. XIV, § 1
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, not to
any person who shall be divorced or whose first
marriage shall be declared void by the sentence
of a competent court.
S.C. Code § 20-1-80.
STATEMENT OF THE CASE
I.

Background and Proceedings before the
South Carolina Supreme Court’s decision
in Wilson v. Dallas.

1. Legendary entertainer James Brown died on
December 25, 2006, leaving a generations-long musical
legacy, a number of children, and, until June 17, 2020,
a widow. James Brown’s widow, Tommie Rae Brown
(née Hynie) (Tommie Rae) is the petitioner in this
matter. The respondents are James Brown’s daughters:
Deanna Brown-Thomas, both individually and in her

3
capacity as the Personal Representative of the estate of
his daughter Venisha Brown, and Yamma Brown.
2. While Brown executed a will and trust
instrument in 2000, neither provided for Tommie Rae,
whom Brown subsequently married in 2001, nor his
son James Brown II, who was born to Tommie Rae in
2001. On February 1, 2007, Tommie Rae filed in
Brown’s estate a petition for her elective share and
omitted spouse’s share of the estate under the
applicable South Carolina probate statutes. On October
30, 2007, and again on November 26, 2007, Tommie
Rae filed motions for summary judgment on the issue
of her status as surviving spouse of James Brown.
3. On December 20, 2007, Tommie Rae also filed
petitions to set aside James Brown’s will and trust. On
December 26, 2007, Respondents and other children1 of
James Brown likewise filed petitions to set aside the
will and trust.
4. On August 10, 2008, Tommie Rae, Respondents,
the South Carolina Attorney General (on behalf of the
beneficiaries of the 2000 trust) and other children of
James Brown reached a settlement agreement before
the parties’ petitions or Tommie Rae’s motions were
decided. The settlement agreement (restated March 3,
2009) provided, inter alia, that Tommie Rae was the
surviving spouse of James Brown. The Aiken County
Circuit Court approved this settlement by order dated
May 26, 2009.

1

For the purposes of this petition, “children” will refer to both
confirmed and putative children of James Brown.

4
5. The order approving the settlement also removed
the personal representatives of James Brown’s probate
estate and the trustees of his trust. The removed
personal representatives and trustees appealed to the
South Carolina Court of Appeals, who transferred the
appeal to the South Carolina Supreme Court. The
South Carolina Supreme Court affirmed the removal of
the personal representatives and the trustees, but
invalidated the settlement agreement, finding the
“settlement reached in this case was not a fair and just
resolution of a good faith controversy and that court
approval is not appropriate [under the South Carolina
Probate Code].” Wilson v. Dallas, 403 S.C. 411, 450,
743 S.E.2d 746, 767 (2013).
II.

The Circuit Court’s Consideration of
Tommie Rae’s Status as Surviving Spouse
after Wilson v. Dallas.

1. Upon remand, the Aiken County Circuit Court
appointed David C. Sojourner, Jr. as limited special
trustee of James Brown’s trust on October 1, 2013. The
Aiken County Probate Court appointed Sojourner as
limited special administrator of the estate on October
10, 2013. On April 28, 2014, Tommie Rae again moved
for summary judgment on the issue of her marriage to
James Brown. On May 29, 2014, Sojourner filed his
own motion for summary judgment, alleging Tommie
Rae’s 2001 marriage to James Brown was void ab initio
for bigamy. In order to decide these motions, the state
trial court was forced to re-examine a dispute Tommie
Rae and James Brown resolved and reduced to
judgment over a decade earlier.

5
2. In 2003, a third party informed James Brown
that in 1997 Tommie Rae married Javed Ahmed, a
Pakistani national, in Texas and had not subsequently
obtained a divorce. On December 15, 2003, Tommie
Rae filed an action to declare the putative marriage to
Ahmed void ab initio on the grounds of, inter alia,
bigamy, alleging Ahmed had three or more wives to
whom he was legally married under Pakistani law
when Tommie Rae and Ahmed participated in a
putative marriage ceremony in 1997. (App. 78, 80-81).
Tommie Rae pursued this action at James Brown’s
request, and with his support. (Nov. 15, 2007 Aff. of
Tommie Rae ¶¶ 4, 6, 9, 10). James Brown paid Tommie
Rae’s attorney’s fees to bring this action, and he was
kept apprised of these proceedings through his
attorney. (App. 78, 81, 133). The couple quarreled
regarding a different issue and temporarily separated,
and on January 29, 2004, James Brown filed an action
to declare his 2001 marriage to Tommie Rae void ab
initio on the ground of bigamy. (App. 35, 81-82).
3. Tommie Rae’s annulment action was tried before
the Charleston County Family Court on April 15, 2004.
(App. 80-81). Ahmed, served via publication, did not
appear. Tommie Rae testified Ahmed would not allow
her to enter his home. (Brown v. Ahmed trial trans. p.
8 ll. 17-20). Tommie Rae further testified Ahmed
admitted to her after their putative marriage ceremony
that he already had three wives in Pakistan and that
he married her only to remain in the United States.
(App. 34, 78, 80-81). Tommie Rae’s testimony was the
only evidence presented to the Family Court. The
Family Court issued an order declaring Tommie Rae’s
purported 1997 marriage void ab initio on the grounds

6
of Ahmed’s bigamy, lack of consummation, and fraud.
(App. 140-146). This order was never appealed.
4. On May 5, 2004, (while the couple was still
temporarily separated) James Brown amended his
complaint for annulment, requesting the trial court
issue a judgment that the “Findings of Facts [sic] of the
Charleston Family Courts [sic] are binding on [the
Aiken County Family Court]…” and “[p]ursuant to the
Order of the Charleston Family Court, Defendant is
collaterally and judicially estopped from denying the
allegations in [Mr. Brown’s annulment action].” (App.
81-82). Tommie Rae answered Brown’s amended
complaint, asserting a counterclaim for divorce. (App.
82). Tommy Rae and James Brown reconciled, and on
August 14, 2004, the Aiken County Family Court
dismissed James Brown’s annulment action without
prejudice via a consent order. (App. 136-139). According
to the consent order, signed by the attorneys for
Tommie Rae and James Brown: “The parties have
resolved their differences and are currently residing
together.” (App. 137). They resided together as
husband and wife until James Brown’s death on
December 25, 2006. (App. 35).
5. On January 13, 2015, the Aiken County Circuit
Court issued an order granting Tommie Rae’s motion
for summary judgment confirming her status as
surviving spouse of James Brown and denying
Sojourner’s. (App. 72-135). This decision was based
upon a joint stipulation of facts filed by the parties to
this action, David C. Sojourner, and children Daryl
Brown, Larry Brown, and Terry Brown. (App. 51, 73).
The Aiken County Circuit Court held the April 15,

7
2004, annulment order was binding, Tommie Rae’s
purported 1997 marriage to Ahmed was void ab initio,
and Tommie Rae’s 2001 marriage to James Brown was
valid due to a lack of impediment. (App. 134). The
Aiken County Circuit Court denied subsequent motions
to reconsider by order dated October 20, 2015. (App. 4971).
III.

Proceedings on Appeal.

1. On November 20, 2015, respondents Deanna
Brown-Thomas, Yamma Brown, and Venisha Brown
appealed the trial court’s January 13, 2015 and October
20, 2015 orders to the South Carolina Court of Appeals.
Terry Brown, Michael Deon Brown, and Daryl Brown
also appealed on November 24, 2015. No other children
of James Brown appealed the Aiken County Circuit
Court’s decisions. Court-appointed fiduciary David C.
Sojourner also filed a notice of appeal, but he settled
with Tommie Rae, abandoning the estate’s challenge to
her status as surviving spouse and supporting her
claim, and the South Carolina Court of Appeals
dismissed him from the appeal on September 19, 2017.
2. By opinion dated July 25, 2018, the South
Carolina Court of Appeals affirmed the trial court’s
finding that Tommie Rae’s purported 1997 marriage
was void ab initio and thus she was James Brown’s
surviving spouse because she had no impediment to
their marriage. (App. 32-48). The South Carolina Court
of Appeals also found the trial court did not have
subject matter jurisdiction to review the 2004
annulment order, and, under the doctrine of collateral
estoppel, the appellants had no standing to challenge
that order. (App. 45-47).

8
3. James Brown’s children Deanna Brown-Thomas,
Yamma Brown, and Venisha Brown petitioned the
South Carolina Supreme Court for a writ of certiorari,
which it issued on February 1, 2019. Terry Brown,
Michael Deon Brown, and Daryl Brown attempted to
join the petition of Brown-Thomas, et al., but on
January 23, 2020, the South Carolina Supreme Court
removed them as parties for failure to file a petition for
certiorari or a merits brief. On June 25, 2020, the
South Carolina Supreme Court issued its opinion
reversing the South Carolina Court of Appeals. (App. 131). The majority opinion held first the April 15, 2004
annulment order was an in rem judgment binding on
the world, but also held Brown-Thomas, et al. could
contest the order’s underlying factual findings,
applying a new, incorrect interpretation of Tilt v.
Kelsey, 207 U.S. 43, 52-53 (1907) and Gratiot Cty. State
Bank v. Johnson, 249 U.S. 246, 248-49 (1919). (App.
14). Applying this new rule to the April 15, 2004
annulment order, the majority found “the factual
findings underlying the annulment order [i.e., bigamy]
are not conclusive,” and reversed the grant of summary
judgment. (App. 18-19, 24).
4. Second, the South Carolina Supreme Court
created another new rule requiring a person in a void
marriage to obtain a judicial declaration of its
invalidity before he or she may seek remarriage. (App.
26-27, 29). The court then applied this new rule to
Tommie Rae’s 2001 marriage to James Brown,
declaring it void ab initio for Tommie Rae’s failure to
obtain a judicial declaration of invalidity prior to
marriage. (App. 29-30). As a result, Tommie Rae was
deprived of her status as the “surviving spouse” of

9
James Brown. The South Carolina Supreme Court
remanded the action for further proceedings.2 (App.
31). The court did not apply this new rule to Tommie
Rae’s purported 1997 marriage to Ahmed.
5. Tommie Rae timely sought rehearing, asserting
in her petition, inter alia, that the South Carolina
Supreme Court’s attack on the 2004 annulment order
and its new rule requiring a judicial decree of invalidity
unconstitutionally impaired Tommie Rae’s
fundamental right to marry, depriving her of Due
Process and Equal Protection of the law. (App. 150159). Tommie Rae also argued this new rule should
apply prospectively, and not retrospectively to the
marriages at issue in this case, but if the new rule were
applied retroactively, it should apply consistently to
both marriages at issue, rather than just one. (App.
159-160, 166-167). The South Carolina Supreme Court
denied Tommie Rae’s petition for rehearing by order
dated August 24, 2020. (App. 147-148).

2

The finding Tommie Rae was not James Brown’s spouse is
dispositive of Tommie Rae’s petition for elective share or omitted
spouse share, rendering the South Carolina Supreme Court’s
ruling a “final judgment” reviewable by the Court. See Jefferson v.
City of Tarrant, 522 U.S. 75, 81 (1997).

10
REASONS FOR GRANTING THE WRIT
On December 25, 2006, James Brown died knowing
he was married to Tommie Rae Brown: after dismissing
by consent his 2004 annulment action, he never sought
an annulment or a divorce. Yet more than 13 years
after his death, the South Carolina Supreme Court
created a new rule that invalidated his marriage,
deprived Tommie Rae of her status as his widow, and
subjected his son James II, who passed two DNA tests,
to questions about his legitimacy.
Without the Court’s intervention, this injustice will
repeat itself for countless people who previously
obtained a divorce or annulment of a prior marriage.
By allowing non-parties to attack an in rem status
order, a person who obtained an annulment or divorce
can never be sure that a subsequent marriage will be
upheld without bringing an action against his or her
intended spouse to confirm the prior divorce or
annulment.
Moreover, only those with the resources to prevail
in the marital equivalent of a quiet title action can
enter into a valid marriage. For those lacking those
resources, the South Carolina Supreme Court has
denied them “the constellation of benefits that the
States have linked to marriage.” Obergefell v. Hodges,
576 U.S. 644, 646-47 (2015). Even those with the
resources to pursue a “marital quiet title” action would
be denied a fundamental right unless they pursued the
action.

11
Even if the South Carolina Supreme Court’s
decision does not violate Due Process and Equal
Protection, it must be applied purely prospectively (i.e.,
to persons contracting marriage after June 17, 2020).
The courts of appeals are split almost evenly on what
circumstances, if any, require purely prospective
judicial decrees. The Court’s intervention is necessary
to provide clarity on this important issue of federal law.
I.

The South Carolina Supreme Court’s
Decision Violates the United States
Constitution’s guarantees of Due Process
and Equal Protection.

“A conflict between a decision of the highest state
court and that of the Supreme Court on a matter of
federal law is a strong reason for the granting of
certiorari.” S. Shapiro, K. Geller, T. Bishop, E.
Hartnett, & D. Himmelfarb, SUPREME COURT PRACTICE
§ 4.25, p. 4-72 (11th ed. 2019) (citing, inter alia,
Kentucky v. King, 563 U.S. 452 (2011)). The right to
marry is a fundamental right, protected by the due
process guarantees of the Fifth Amendment, applicable
to the states via the Fourteenth Amendment. See
Obergefell, supra. As set forth herein, the South
Carolina Supreme Court’s decision, which creates an
impossible burden on a class of persons seeking to
marry, does not survive the strict scrutiny to which
protection of that fundamental right is entitled.3
3

Some of Tommie Rae’s arguments were made and considered in
the briefing before the South Carolina Supreme Court (e.g., attack
of in rem judgments, prospective application of the decision, and
disparate treatment of the two marriages). (App. 171-178). Other
arguments appeared for the first time in Tommie Rae’s petition for

12
A. Requiring a class of persons to obtain a
judicial decree in order to marry
violates Due Process and Equal
Protection.
1. The South Carolina Supreme Court’s new rule
prohibits marriage by persons who had been in a void
marriage (e.g., a bigamous marriage), unless these
persons first obtain a judicial declaration of invalidity
from a competent court. (App. 26-29). Under this new
rule, marriages that fail to obtain this declaration
beforehand are void. (App. 29). Such a new rule is
completely antithetical to the historical, universal
treatment of a bigamous marriage as void ab initio –
i.e., it was never a marriage. The court’s imposition of
this new rule, which it selectively applied retroactively
to the marriage of Tommie Rae and James Brown,
deprived them of their vested constitutional right to
marry. That rule applied to others similarly situated
will similarly deprive them of their vested
constitutional right to marry.
2. The Court invalidated a strikingly similar
prohibition in Zablocki v. Redhail, 434 U.S. 374 (1978).
The statute at issue in Zablocki prohibited Wisconsin
residents delinquent in their child support obligations
from entering into marriage without a court order. Id.
at 376. Marriages in violation of this statute were void,
and violators were subject to criminal penalties. Id.
rehearing (App. 150-168), but the Court may appropriately
consider the rehearing arguments, as the violations of federal law
at issue in this case manifested in the South Carolina Supreme
Court’s opinion. See e.g. Stop the Beach Renourishment, Inc. v. Fla.
Dep’t of Envtl. Prot., 560 U.S. 702, 712 n.4 (2010).

13
The Zablocki court found the statute at issue violated
the Equal Protection rights of persons who lacked the
means or proof to obtain a court order permitting
marriage. Id. at 387. It also found it violated the Equal
Protection rights of persons who would be so burdened
by the statute’s requirements that they would forgo
marriage altogether. Id.
3. The Zablocki court also found the statute at issue
violated Substantive Due Process by unnecessarily
impinging on the fundamental right to marry. Id. at
388. Any government infringement of a fundamental
right must be narrowly tailored to serve a compelling
state interest. Reno v. Flores, 507 U.S. 292, 301-02
(1993). The Zablocki court found Wisconsin’s interests
in compelling marriage counseling and compelling
payment of child support were insufficient to justify its
imposition on the right to marry.
4. The state interests in this case are equally
insufficient. According to the South Carolina Supreme
Court, its new rule exists to promote “[t]his state’s
abiding interest in the accuracy of its records regarding
a party’s marital status…” (App. 28). South Carolina
can maintain accurate marriage records without
prohibiting marriage to a significant percentage of its
residents. For example, South Carolina already
provides for criminal penalties for false statements in
a marriage license application. E.g., S.C. Code § 16-930 (false swearing). Further, the South Carolina
Supreme Court’s new rule does nothing to improve the
accuracy of South Carolina’s Bureau of Vital Statistics
marriage records, as this agency does not, and cannot,
keep complete records of marriages, divorces,

14
annulments, &c. from other states. It is not possible for
South Carolina to maintain records that determine the
marriage status of every individual because any person
could get married, or obtain a divorce or annulment in
another state or country, and those records would not
be part of South Carolina’s record system.
5. The South Carolina Supreme Court’s new rule
has a nearly identical effect to the statute in Zablocki,
prohibiting marriage for a class of persons who are
parties to a void marriage, but lack the means to obtain
a court order. The class of persons who have the means
to petition a court, but cannot marshal proof of
invalidity (e.g., missing witnesses, destruction of
records, &c.) are likewise barred. Persons unable to
satisfy this rule’s requirements will be, in effect,
coerced into forgoing their right to marry. Though the
South Carolina Supreme Court’s new rule does not
explicitly provide for criminal liability, it does not
foreclose the potential for a bigamy prosecution after
the rule voids a marriage.
6. The policies underlying Zablocki are as sound
today as they were in 1971. The Obergefell court cited
Zablocki extensively in its finding that the right to
marry was fundamental to all persons. E.g., Obergefell,
576 U.S. at 637 (“It was the essential nature of the
marriage right…that made apparent the [law in
Zablocki’s] incompatibility with requirements of
equality.”). For example, state regulation of the
fundamental right to marry “must stop short of telling
people that they may not marry because they are too
poor.” Zablocki, 434 U.S. at 395; see also Id. at 404
(Stevens, J., concurring) (noting that a rule that “the

15
rich may marry and the poor may not” would be
“inconsistent with our tradition of administering justice
equally to the rich and to the poor”); cf. Boddie v.
Connecticut, 401 U.S. 371 (1971) (holding that
Connecticut statutes governing payment of fees and
costs in divorce cases violated the Due Process clause,
where their effect was to prevent poor persons from
obtaining divorces at all).
B. The South Carolina Supreme Court’s
decision arbitrarily deprives Tommie
Rae of her fundamental right to marry.
1. A rule against bigamy is not a “reasonable
regulation” of the fundamental right to marry if the
state’s procedures for determining the existence of a
bigamous marriage are applied arbitrarily. When a
spouse follows a settled legal process for determining
whether a valid prior marriage exists, the state must
accept the results; it cannot disregard the results
arbitrarily. To establish a reasonable process, but then
to disregard that process arbitrarily, is not materially
different from having an unreasonable and arbitrary
process to begin with or no process at all.
2. Tommie Rae utilized a settled legal process
expressly permitted by South Carolina law: she filed an
action to annul her putative marriage to Ahmed to
confirm that the putative marriage was never valid and
thus not an impediment to her marriage to James
Brown. That action resulted in a final (unappealed)
judgment determining that Tommie Rae did not have
a valid marriage to Ahmed at the time that she
married James Brown. Mr. Brown paid the legal fees

16
for this action, so he was aware of the proceedings and
approved of them.
3. However, 16 years later, the South Carolina
Supreme Court arbitrarily changed the law. It
determined Tommie Rae effectively had a valid
marriage to Ahmed at the time she married James
Brown because the South Carolina Supreme Court
created a new rule that the bigamous Texas marriage
was effectively valid until the annulment order. By
arbitrarily changing South Carolina’s prior law that
Tommie Rae’s marriage to Ahmed was void for
Ahmed’s bigamy, the South Carolina Supreme Court
arbitrarily denied Tommie Rae her fundamental right
to marry. Not only did the court deprive Tommie Rae
and James Brown of their vested constitutional right to
marry, it effectively prevents Tommie Rae, and others
who have obtained an annulment or divorce, from being
certain about the validity of any future marriage. See
the discussion at I.C. below.
4. States cannot infringe upon the right to remarry
unless the restrictions are “reasonable regulations.”
Zablocki, 434 U.S. at 386-87. A rule that arbitrarily
changes the result of a final judgment of annulment
and effectively requires previously married persons to
sue their spouses before marrying them, is not a
reasonable regulation. The South Carolina Supreme
Court’s new rule is an unreasonable restraint upon the
fundamental right of marriage.

17
C. Allowing third parties to attack an in
rem judgment adjudicating vested
federal rights violates long-settled
precedent and Due Process.
1. In addition to violating Tommie Rae’s
constitutional right to marry, the South Carolina
Supreme Court’s decision also deprives Tommie Rae of
vested rights to which she was entitled under the final
judgment annulling her marriage to Ahmed. Federal
law prevents state action, legislative or judicial, from
taking away private rights that have vested under final
judgments. See e.g. McCullough v. Commonwealth of
Virginia, 172 U.S. 102, 123-24 (1898); Hodges v.
Snyder, 261 U.S. 600, 603 (1923); Brinkerhoff-Faris
Trust & Sav. Co. v. Hill, 281 U.S. 673, 679-80 (1930).
2. The status of the marriage between Tommie Rae
and Ahmed, in the language of the McCullough Court,
has “passed into judgment.” 172 U.S. at 123-24. Once
private rights have passed into judgment, they cannot
therefore be taken away by state action. A state
legislature cannot take away those rights by statute,
and a state judiciary cannot take away those rights by
court decision.
3. The facts of Brinkerhoff-Faris are analogous to
the facts presented here. Brinkerhoff-Faris was an
action in equity by a stockholder questioning the value
given to the stock by a local tax assessor. The Missouri
Supreme Court, overruling precedent, created a new
rule requiring the petitioner to complain directly to the
state tax commission. Six years previously, the
Missouri Supreme Court had held that no such
complaint could be brought. Indeed, it termed the

18
concept of a complaint to the tax commission
“preposterous” and “unthinkable.” 281 U.S. at 676. It
had followed that ruling in later cases.
The Missouri Supreme Court’s prior decisions in
effect conferred upon the plaintiff a vested right to file
an action in equity without first complaining to the tax
commission. The Court held that while the Missouri
Supreme Court was free to require prospectively that
complaints about assessments be presented first to the
tax commission, it was not free to impose such a rule
retroactively in a manner that penalized parties who
relied in good faith upon the Missouri Supreme Court’s
strong prior case law.
4. Although Tommie Rae believed her putative
marriage to Ahmed was a nullity, she sought
confirmation of this fact by filing, with James Brown’s
assistance and support, an action to annul her
marriage to Ahmed. That action resulted in a final
judgment finding that Tommie Rae’s marriage to
Ahmed was void ab initio for Ahmed’s bigamy. That
final judgment gave Tommie Rae a vested legal right in
the invalidity of her marriage to Ahmed and therefore
necessarily a legal right in the validity of her marriage
to James Brown. By holding that Tommie Rae’s
marriage to James Brown was invalid, the South
Carolina Supreme Court violated the Due Process
Clause by taking away a right that had vested by law
under a prior judgment.
5. The South Carolina Supreme Court also modified
South Carolina law in a way similar to the Missouri
Supreme Court’s modification in Brinkerhoff-Faris.

19
The law of South Carolina has always been that a
bigamous marriage was void ab initio:
All marriages contracted while either of the
parties has a former wife or husband living shall
be void. But this section shall not extend to a
person whose husband or wife shall be absent
for the space of five years, the one not knowing
the other to be living during that time, no[r] to
any person who shall be divorced or whose first
marriage shall be declared void by the sentence
of a competent court.
S.C. Code § 20-1-80; see also State v. Smith, 101 S.C.
293, 85 S.E. 958, 960 (1915) (“A marriage is termed
void when it is good for no legal purpose, and its
invalidity may be maintained in any proceeding, in any
court, between any parties, whether in the lifetime or
after the death of the supposed husband and wife, and
whether the question arises directly or collaterally.”);
Day v. Day, 216 S.C. 334, 338, 58 S.E.2d 83, 85 (1950)
(“A mere marriage ceremony between a man and a
woman, where one of them has a living wife or
husband, is not a marriage at all. Such a marriage is
absolutely void, and not merely voidable”). The statute
quoted above means just what it says: a bigamous
marriage is void. Thus, according to the statute’s first
sentence, Tommie Rae’s putative marriage to Ahmed
was void because Ahmed was already married. Even if
the first sentence of the statute quoted above were not
controlling, Tommie Rae also prevails under its
subsequent language: a second marriage is not void for
bigamy if a first marriage “shall be declared void by the
sentence of a competent court.” Id. That is exactly

20
what happened in this case. The statute makes no
reference to who was or was not a party to the
annulment action. It makes no reference to whether
the first marriage was declared void before or after the
date of the second marriage. The statute states, simply
and directly, that a bigamous marriage is void and that
a marriage is not void for bigamy if a prior marriage
has been declared void.
6. The lesson of Brinkerhoff-Faris is that the federal
vested rights doctrine applies with particular force
when a state makes a substantial, sudden, and
surprising change in state law. The South Carolina
Supreme Court’s decision in this case made exactly the
sort of major, unexpected change in state law that the
Missouri Supreme Court made in Brinkerhoff-Faris.
Disregarding the applicable statute and all prior case
law, the decision before the Court holds that a
bigamous marriage is not invalid until a court rules
that it is invalid and that a judgment on the validity of
a disputed marriage is conclusive only upon the
parties, not upon “all persons concerned.”
7. Tommie Rae’s case is even stronger than the
petitioner of Brinkerhoff-Faris. The petitioner in
Brinkerhoff-Faris was not directly a party to the prior
Missouri Supreme Court cases rejecting the concept of
filing a complaint directly with the tax commission; it
was an entity incidentally harmed by the overruling of
those cases. Here, by contrast, Tommie Rae was a
party to, and a direct beneficiary of, the judgment
annulling her marriage to Ahmed. If the Due Process
Clause protects the rights of an incidental beneficiary
of a prior judgment, it certainly protects the rights of a

21
direct party to a prior judgment. The South Carolina
Supreme Court’s decision in this case violates the Due
Process Clause.
II.

The Questions Presented are Important
and Recurring.

1. The implications of the South Carolina Supreme
Court’s ruling are quite radical. It is increasingly
common for Americans to enter into successive
marriages: a 2015 census report found that 32.3 million
Americans had been married twice and that another
8.6 million had been married three or more times.
United States Census Bur., J. Lewis, A. Kreider,
Remarriage in the United States 7 (ACS-30 March
2015). In order for a person to have an effective right to
remarry, procedures must exist for obtaining an
authoritative determination of the validity of a prior
marriage. Before the South Carolina Supreme
Court’s new rule, a person proposing to enter into a
subsequent marriage could safely assume that a
judgment of annulment or divorce terminated the prior
marriage so that the subsequent marriage could safety
and properly be entered into – that is, a court order of
an annulment or divorce would be binding on the world
as an in rem judgment of status.
2. If this ruling is allowed to stand it will no longer
be possible for any person subject to its ruling to rely
upon a final judgment of annulment or divorce. Almost
by definition, the person’s subsequent spouse will not
have been a party to the annulment or divorce that
ended the person’s previous marriage. Under the South
Carolina Supreme Court’s ruling, therefore, the
subsequent spouse would have the right at will to

22
attack the judgment of annulment or divorce. Even if
that judgment is nominally binding as to status, it will
not be binding as to the facts underlying the status,
which means that the judgment is truly not binding at
all.
3. Permitting non-parties to attack the validity of an
annulment or divorce order means that the party to the
divorce or annulment order can never reliably enter
into a subsequent marriage. Under the South Carolina
Supreme Court’s ruling, the only way for a person to
safely enter into a subsequent marriage would be to
sue his or her intended spouse for a declaratory
judgment that the previous annulment or divorce is
valid. Only then will a judgment of annulment or
divorce bind a subsequent spouse who was not a party
to the original annulment action. A rule requiring any
person to sue a new spouse before safely marrying him
or her is a substantial and unjustified infringement
upon the right to marry, and an equally substantial
burden on the courts which would entertain these
actions, invoking Zablocki.
4. The South Carolina Supreme Court’s ruling also
has the unintended and surprising (if not shocking)
consequence of facilitating two ancient mala in se:
bigamy and polygamy. Under this ruling, a bigamous
marriage is not void until a court declares it so, making
such marriages effectively voidable, rather than void,
as they have always been. Accordingly, a person who is
already married and who then marries another is in
two valid marriages until the innocent person in the
subsequent (bigamous) marriage obtains an
annulment, which only then triggers the bigamy

23
statute to void the subsequent (bigamous) marriage. No
other state offers such an opportunity for plural
marriage.
5. Under the South Carolina Supreme Court’s
ruling, final judgments of annulment are open to
collateral attack by anyone who was not a party to the
original action. If any nonparty successfully attacks
the annulment, a person who remarried in reliance
upon the annulment would then be guilty of
unintentional bigamy, and could be subject to criminal
prosecution at any time (the crime of bigamy has no
statute of limitations in South Carolina).
III.

There is a Circuit Split over the
Prospective or Retroactive Application of
Judicial Decrees.

1. As the Court recently noted, “certiorari
jurisdiction exists to clarify the law.” City & Cty. of S.F.
v. Sheehan, 135 S.Ct. 1765, 1774 (2015). The courts of
appeals conflict on what circumstances justify pure
prospectivity of judicial decisions, and Obergefell
provides no guidance on whether decisions affecting the
fundamental right to marry should be applied purely
prospectively. The disparity of the standard for pure
prospectivity within the courts of appeals described
infra is profoundly unfair to litigants seeking
uniformity on whether they can avoid the harshness of
a judicial decree applied retroactively. Such unfairness
renders this circuit split “intolerable” and necessitates
the Court’s intervention. See Judicial Conference of the
United States, Report of the Federal Courts Study
Committee 125 (April 2, 1990) (examples of so-called
“intolerable” conflicts).

24
2. In the past century, the Court’s decisions have
been inconsistent on the issue of prospectivity or
retroactivity of judicial decrees. See generally Stephen
J. Hammer, Retroactivity and Restraint: An AngloAmerican Comparison, 41 Harv. J.L. & Pub. Pol’y 409
(2018). For decades, Chevron Oil Co. v. Huson, 404 U.S.
97 (1971), set the standard for when a decision should
have prospective effect. Under Chevron Oil,
nonretroactivity of judicial decisions is appropriate
where (1) the decision “establish[es] a new principle of
law”; (2) “retrospective operation will further or retard
[the rule’s] operation” in light of its history, purpose,
and effect; and (3) the decision “could produce
substantial inequitable results if applied retroactively.”
Id. (internal quotation marks omitted).
3. The Court’s subsequent decisions on pure
prospectivity leave questions as to the continued
viability of Chevron Oil. See Harper v. Virginia Dept. of
Taxation, 509 U.S. 86 (1993); Reynoldsville Casket Co.
v. Hyde, 514 U.S. 749 (1995). The Court has
nonetheless signaled that utilization of Chevron Oil is
appropriate under circumstances of “grave disruption
or inequity”. Ryder v. United States, 515 U.S. 177, 185
(1995); see also Harper, 509 U.S. at 110 (Kennedy, J.
and White, J., concurring in part and concurring in the
judgment) (“I remain of the view that it is sometimes
appropriate in the civil context to give only prospective
application to a judicial decision.”); Reynoldsville
Casket, 514 U.S. at 761 (Kennedy, J. and O’Connor, J.,
concurring in the judgment) (Court may “shape relief”
in “exceptional cases”.). However, the late justices
Scalia, Marshall, and Blackmun all believed that
prospectivity of judicial decisions is beyond the powers

25
granted by Article III of the Constitution. James B.
Beam Distilling Co. v. Georgia, 501 U.S. 529, 547-48
(1991) (Blackmun, Marshall, Scalia, JJ., concurring in
the judgment); Id. at 548-49 (Scalia, Marshall,
Blackmun, JJ., concurring in the judgment).
4. Chevron Oil has never been squarely overruled,
and, as a result, disputes over the application of pure
prospectivity roil the courts of appeals.4
A. Five circuits continue to use the test of
Chevron Oil.
1. The first circuit, reversing a prior decision that
required the use of a Fed. R. Civ. P. 60(a) motion to
address prejudgment interest, applied its new decision
purely prospectively under Chevron Oil. Crowe v.
Bolduc, 365 F.3d 86, 93 (CA1 2004).
2. The second circuit, applying the Court’s decision
in Lexecon Inc. v. Milberg Weiss Bershad Hynes &
Lerach, 523 U.S. 26 (1998), applied it purely
prospectively under Chevron Oil. Shah v. Pan Am.
World Servs., Inc., 148 F.3d 84, 92 (CA2 1998).
3. The eighth circuit, reversing a state products
liability verdict, found, in dicta, judicial decisions may

4

This dispute is not limited to the courts of appeals: “Almost every
state that has considered the question has declined to follow the
Supreme Court’s reasoning in Harper and retained Chevron Oil or
a variation thereof.” RETROACTIVITY AND RESTRAINT at 430; but see
Bass v. South Carolina, 509 U.S. 916 (1993), vacating 302 S.C. 250,
395 S.E.2d 171 (1990) (summary vacatur, citing Harper, of a South
Carolina Supreme Court decision applying the Court’s prior
decision in the case purely prospectively).

26
have prospective effect if the Chevron Oil factors were
met. Baker v. Gen. Motors Corp., 86 F.3d 811, n. 8 (CA8
1996), reversed on other grounds, 522 U.S. 222 (1998);
4. The ninth circuit, reversing a prior immigration
law decision, recognized and analyzed the circuit split
concerning the continued viability of Chevron Oil.
Nunez-Reyes v. Holder, 646 F.3d 684, 690-95 (CA9
2011) (en banc). Though the ninth circuit appeared to
recognize modifications to Chevron Oil, it ultimately
held its rule would be considered purely prospectively
under an unmodified version of the Chevron Oil test.
Id. at 692. However, Judges Ikuta, O’Scannlain, and
Callahan objected to the broad use of Chevron Oil in
their partial dissent. Id. at 698-703.
5. The tenth circuit noted: “Since Chevron, the
Court’s standard has evolved in many ways, leaving in
its wake a confusing path for courts to navigate.” In re
Mersmann, 505 F.3d 1033, 1052 (CA10 2007) abrogated
on other grounds by United Student Aid Funds, Inc. v.
Espinoza, 559 U.S. 260 (2010). However, it applied
purely prospectively, under Chevron Oil, its
interpretation of the preclusive effect of a confirmation
finding of “undue hardship” in adversary proceedings
under the Bankruptcy Code. Id. at 1051-1052.
B. Five circuits use standards set by
Harper or its progeny.
1. The fifth circuit, reviewing a provision of the
Class Action Fairness Act, noted, in dicta, Chevron Oil
was “limit[ed]”, but “not repudiat[ed]” by Harper.
Admiral Ins. Co. v. Abshire, 574 F.3d 267, n. 32 (CA5
2009).

27
2. The sixth circuit, applying retroactively a statute
of limitations to civil rights actions established Cooey
v. Strickland, 479 F.3d 412, 424 (CA6 2007), found, in
dicta, pure prospectivity appropriate only in the four
very limited circumstances identified in one of Harper’s
progeny. Broom v. Strickland, 579 F.3d 553, 556 (CA6
2009) (citing Reynoldsville Casket Co. v. Hyde, 514 U.S.
749, 759 (1995)).
3. The seventh circuit, applying the Court’s decision
in Janus v. American Federation of State, County &
Municipal Employees, 138 S.Ct. 2448 (2018), found new
rules of federal law must be given “full retroactive
effect” under Harper. Janus v. American Federation of
State, County & Municipal Employees, 942 F.3d 352,
359-60 (CA7 2019). The seventh circuit also recognized,
again citing Harper, that retroactivity did not always
mean uniformity of remedy. Id. at 360. The seventh
circuit also noted pure prospectivity could be
appropriate in circumstances of “‘grave disruption or
inequity involved in awarding retrospective relief to the
petitioner’”. Id. (quoting Ryder v. United States, 515
U.S. 177, 184-85 (1995)).
4. The eleventh circuit, overturning, with
retroactive effect, an interspousal wiretapping
exception to federal civil wiretapping liability, applied
the Chevron Oil factors. Glazner v. Glazner, 347 F.3d
1212, 1219-1220 (CA11 2003). However, the eleventh
circuit applied these factors objectively, a modification
derived from Harper. Id.
5. The D.C. circuit, reviewing the Federal Energy
Regulatory Commission’s decision to apply a D.C.
circuit decision retroactively found pure prospectivity

28
possible only in the four very limited circumstances
identified in one of Harper’s progeny. Nat’l Fuel
Gas Supply Corp. v. F.E.R.C., 59 F.3d 1281, 1288
(CADC 1995) (quoting Reynoldsville Casket, 514 U.S. at
759).
C. Three circuits’ positions are unclear.
1. The third circuit, affirming an immigration
appeal on procedural grounds, noted, in dicta, its power
to order purely prospective relief “unclear” in light of
Harper. Kolekevich v. Attorney General, 501 F.3d 323,
n. 9 (CA3 2007).
2. The fourth circuit, overturning a state regulation
establishing different school facility rental rates for
churches, held its decision should be applied
retroactively, without taking a position on whether
pure prospectivity was possible. Fairfax Covenant
Church v. Fairfax Cty. Sch. Bd., 17 F.3d 703, 710 (CA4
1994). However, it did note: “It might not be reading
too much into Harper and James B. Beam if we were to
conclude that Chevron, adopting the test for
determining when cases may be enforced prospectively,
has lost all vitality.” Id.
3. The federal circuit, in a patent infringement
appeal, refused to consider Chevron Oil (and thus
prospectivity) on preservation grounds. Fuji Photo Film
Co., Ltd. v. Jazz Photo Corp., 394 F.3d 1368, 1376 (CA
Fed. 2005).

29
D. The South Carolina Supreme Court was
obligated to apply either pure
prospectivity or full retroactivity to its
decision affecting a federal right, but it
applied a selective retroactivity.
1. Tommie Rae has consistently argued that if the
South Carolina Supreme Court’s new rule is to be given
any effect, it should apply purely prospectively, thus
sparing her from its gross inequity and depriving her
of her vested constitutional right to marry. (App. 160,
166, 173). Applying the Chevron Oil test, pure
prospectivity is appropriate: First, the South Carolina
Supreme Court established a new principle of law by
reversing the South Carolina Court of Appeals and all
prior cases while disregarding legislative intent.
Second, while the new rule’s purported goal is to
promote accuracy in marriage records (App. 28), which
it fails to do, this rule creates “chaos” described in
argument II. Third, the gross inequities described in
argument II not only meet the requirements of Chevron
Oil, but they also rise to the level of a “grave disruption
or inequity” making pure prospectivity applicable
under Harper and Ryder.
2. If pure prospectivity is not appropriate for the
South Carolina Supreme Court’s decision, then the
decision must be fully retroactive. See Harper, 509 U.S.
at 100 (“Whatever freedom state courts may enjoy to
limit the retroactive operation of their own
interpretations of state law…cannot extend to their
interpretations of federal law.”). The court selectively
applied the new rule only to the marriage of Tommie
Rae and James Brown and not to the putative marriage

30
of Tommie Rae and Ahmed. If the court had fairly
applied its new rule to both marriages, Tommie Rae
would have had no impediment to her marriage to
James Brown. The effects of the South Carolina
Supreme Court’s new rule will be felt nationwide, as
the statute it purports to interpret is applicable in
other states. E.g. In re Estate of Bivians, 98 N. M. 722,
726, 652 P.2d 744, 748 (N.M. App. 1982) (In New
Mexico, the validity of a marriage is governed by the
law of the jurisdiction in which the marriage was
celebrated.).
3. By failing to recognize that the purported 1997
marriage to Ahmed was void ab initio, the South
Carolina Supreme Court violated Harper with its
selective retroactivity, which has never been allowed.
See Harper, 509 U.S. at 100. To the extent the South
Carolina Supreme Court’s decision is not retroactive, it
still has no basis in law, as selective prospectivity of
decisions on federal law is not possible. Id. at 97.

31
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
Robert N. Rosen
Susan Corner Rosen
Thomas A. Haffey
Rosen Law Firm, LLC
18 Broad Street, Suite 201
Charleston, SC 29401

Jason Scott Luck
Counsel of Record
P.O. Box 47
Bennettsville, SC 29512
(843) 479-6863
jason@luck.law

S. Alan Medlin
1713 Phelps Street
Columbia, SC 29205
Counsel for Petitioner
January 20, 2021
Bennettsville, South Carolina

